APPENDIX

TABLE OF CONTENTS

Page
Appendix A:
Appendix B:

Appendix C:

Appendix D:

Appendix E:

Oklahoma Court of Criminal Appeals
opinion, Apr. 29, 2021 .................................... 1a
Tulsa County District Court
findings of fact and conclusions of law,
Dec. 11, 2020................................................... 8a
Oklahoma Court of Criminal Appeals
order staying issuance of mandate,
May 28, 2021................................................. 19a
Oklahoma Court of Criminal Appeals
order staying issuance of mandate,
Jun. 28, 2021 ................................................. 21a
Oklahoma Court of Criminal Appeals
opinion in Bosse v. State,
No. PCD-2019-124 (Mar. 11, 2021),
vacated and withdrawn,
2021 OK CR 23 (Aug. 31, 2021) .................. 22a

APPENDIX A
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. F-2017-1203

VICTOR MANUEL CASTRO-HUERTA,
Appellant
v.
STATE OF OKLAHOMA,
Appellee

Filed: April 29, 2021
OPINION
ROWLAND, Vice Presiding Judge.
Appellant Victor Manuel Castro-Huerta was convicted in Tulsa County District Court, Case No. CF-20156478, of Child Neglect, in violation of 21 O.S.Supp.2014,
§ 843.5(C). The Honorable William D. LaFortune, District Judge, presided over Castro-Huerta’s jury trial and
sentenced him, in accordance with the jury’s verdict, to
thirty-five years imprisonment. Castro-Huerta appeals
raising the following issues:
(1)

whether improper testimony rendered his trial
unfair;
(1a)

2a
(2)

whether cumulative, evidence elicited sympathy
from the jurors and deprived him of a fair trial;

(3)

whether inadequate jury instructions prevented
a fair trial;

(4)

whether he was denied his constitutional right to
a speedy trial;

(5)

whether prosecutorial misconduct prevented a
fair trial;

(6)

whether he received the effective assistance of
trial counsel;

(7)

whether his sentence is excessive;

(8)

whether the State lacked jurisdiction to prosecute him; and

(9)

whether an accumulation of errors deprived him
of a fair trial.

We find relief is required on Castro-Huerta’s jurisdictional challenge in Proposition 8, rendering his other
claims moot. Castro-Huerta claims the State of Oklahoma
did not have jurisdiction to prosecute him. He relies on 18
U.S.C. § 1153 and McGirt v. Oklahoma, 140 S.Ct. 2452
(2020).
On August 19, 2020, this Court remanded this case to
the District Court of Tulsa County for an evidentiary
hearing. The District Court was directed to make findings
of fact and conclusions of law on two issues: (a) the Indian
status of his victim, A.C., and (b) whether the crime occurred within the boundaries of the Muscogee Creek Reservation or the Cherokee Reservation. Our order provided that, if the parties agreed as to what the evidence
would show with regard to the questions presented, the

3a
parties could enter into a written stipulation setting forth
those facts, and no hearing would be necessary.
On October 8, 2020, the parties filed written stipulations in the District Court. On October 15, 2020, the parties appeared for an evidentiary hearing on the remand
order. On December 8, 2020, the District Court filed its
Findings of Fact and Conclusions of Law.
The parties agreed by stipulation that: (1) the victim,
A.C., had some Indian blood; (2) that A.C. was a registered citizen of the Cherokee Nation on the date of the
charged offense; and (3) that the Cherokee Nation is a federally recognized tribe. The District Court accepted this
stipulation and reached the same conclusion in its Findings of Fact and Conclusions of Law.
As to the second question on remand, whether the
crime was committed in Indian country, the stipulation of
the parties was less dispositive. They agreed only that the
charged crime occurred within the historical geographic
area of the Cherokee Nation as designated by various
treaties.
In a thorough and well-reasoned order, the District
Court examined the treaties between the Cherokee Nation and the United States of America. The District Court
concluded that the treaties established a reservation for
the Cherokee Nation and that no evidence was presented
showing that Congress had ever erased the boundaries of,
or disestablished, the Cherokee Reservation. This Court
adopted this same conclusion of law in Spears v. State,
2021 OK CR 7, ___ P.3d ___. For purposes of federal criminal law, the land upon which the parties agree CastroHuerta allegedly committed the crime is within the Cherokee Reservation and is thus Indian country.

4a
The State briefed the issue of concurrent jurisdiction
below arguing that Oklahoma and the federal government
have concurrent jurisdiction over all crimes committed by
non-Indians in Indian country, including Castro-Huerta’s
case. Castro-Huerta filed a reply brief addressing the issue. The District Court declined to hear arguments of
counsel, issue any rulings, or make any findings of fact or
conclusions of law on the issue but allowed the parties to
preserve the issue for this Court. We rejected the State’s
argument regarding concurrent jurisdiction in Bosse v.
State, 2021 OK CR 3, ¶¶ 23-28, ___ P.3d ___. We do so
again in the present case.
The ruling in McGirt governs this case and requires
us to find the District Court of Tulsa County did not have
jurisdiction to prosecute Castro-Huerta. Accordingly, we
grant relief based upon argument raised in Proposition 8.
DECISION
The Judgment and Sentence of the District Court is
VACATED. The matter is REMANDED WITH INSTRUCTIONS TO DISMISS. Pursuant to Rule 3.15,
Rules of the Oklahoma Court of Criminal Appeals, Title
22, Ch. 18, App. (2021), the MANDATE is ORDERED to
issue in twenty (20) days from the delivery and filing of
this decision.
LUMPKIN, Judge, concurring in results:
Bound by my oath and the Federal-State relationships
dictated by the U.S. Constitution, I must at a minimum
concur in the results of this opinion. While our nation’s judicial structure requires me to apply the majority opinion
in the 5-4 decision of the U.S. Supreme Court in McGirt
v. Oklahoma, ___ U.S. ___, 140 S. Ct. 2452 (2020), I do so
reluctantly. Upon the first reading of the majority opinion

5a
in McGirt, I initially formed the belief that it was a result
in search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas, I was forced to conclude the Majority had totally
failed to follow the Court’s own precedents, but had
cherry picked statutes and treaties, without giving historical context to them. The Majority then proceeded to do
what an average citizen who had been fully informed of
the law and facts as set out in the dissents would view as
an exercise of raw judicial power to reach a decision which
contravened not only the history leading to the disestablishment of the Indian reservations in Oklahoma, but also
willfully disregarded and failed to apply the Court’s own
precedents to the issue at hand.
My quandary is one of ethics and morality. One of the
first things I was taught when I began my service in the
Marine Corps was that I had a duty to follow lawful orders, and that same duty required me to resist unlawful
orders. Chief Justice Roberts’s scholarly and judicially
penned dissent, actually following the Court’s precedents
and required analysis, vividly reveals the failure of the
majority opinion to follow the rule of law and apply over a
century of precedent and history, and to accept the fact
that no Indian reservations remain in the State of Oklahoma.1 The result seems to be some form of “social justice” created out of whole cloth rather than a continuation
1
Senator Elmer Thomas, D-Oklahoma, was a member of the Senate Committee on Indian Affairs. After hearing the Commissioner’s
speech regarding the Indian Reorganization Act (IRA) in 1934, Senator Thomas opined as follows:

I can hardly see where it (the IRA) could operate in a State like
mine where the Indians are all scattered out among the whites
and they have no reservation, and they could not get them into
a community without you would go and buy land and put them on

6a
of the solid precedents the Court has established over the
last 100 years or more.
The question I see presented is should I blindly follow
and apply the majority opinion or do I join with Chief Justice Roberts and the dissenters in McGirt and recognize
“the emperor has no clothes” as to the adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I fulfill my
duties and apply the edict of the majority opinion in
McGirt. However, I am not required to do so blindly and
without noting the flaws of the opinion as set out in the
dissents. Chief Justice Roberts and Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the Indian reservations.
it. Then they would be surrounded very likely with thickly populated white sections with whom they would trade and associate. I
just cannot get through my mind how this bill can possibly be
made to operate in a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in
Oklahoma, he did not think “we could look forward to building up
huge reservations such as we have granted to the Indians in the past.”
Id. at 157. In 1940, in the Foreword to Felix S. Cohen, Handbook of
Federal Indian Law (1942), Secretary of the Interior Harold Ickes
wrote in support of the IRA, “[t]he continued application of the allotment laws, under which Indian wards have lost more than twothirds of their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated.”
(emphasis added).

7a
Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907, all parties accepted the fact
that Indian reservations in the state had been disestablished and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any disrespect
to our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing the
totality of the law and facts.
HUDSON, Judge, concurring in results:
Today’s decision applies McGirt v. Oklahoma, 140 S.
Ct. 2452 (2020) to the facts of this case and dismisses a
child neglect conviction from Tulsa County. I concur in the
results of the majority’s opinion based on the stipulations
below concerning the Indian status of the victim and the
location of this crime within the historic boundaries of the
Cherokee Reservation. Under McGirt, the State cannot
prosecute Appellant. Thus, as a matter of stare decisis, I
fully concur in today’s decision.
I disagree, however, with the majority’s definitive conclusion based on Spears v. State, 2021 OK CR 7, ___ P.3d
___, that Congress never disestablished the Cherokee
Reservation. We should find instead no abuse of discretion based on the record evidence presented.
Finally, I maintain my previously expressed views on
the significance of McGirt, its far-reaching impact on the
criminal justice system in Oklahoma and the need for a
practical solution by Congress. See Bosse v. State, 2021
OK CR 3, ___ P.3d ___ (Hudson, J., Concur in Results);
Hogner v. State, 2021 OK CR 4, ___ P.3d ___ (Hudson, J.,
Specially Concurs); and Krafft v. State, No. F-2018-340
(Okl.Cr., Feb. 25, 2021) (Hudson, J., Specially Concurs)
(unpublished).

8a
APPENDIX B
DISTRICT COURT IN AND FOR TULSA COUNTY
OF THE STATE OF OKLAHOMA

No. CF-2015-6478

VICTOR MANUEL-CASTRO-HUERTA,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.

Filed: December 8, 2020

FINDINGS OF FACT AND CONCLUSIONS OF LAW
This matter came on for hearing before the Court on
October 15, 2020, in accordance with the remand order of
the Oklahoma Court of Criminal Appeals issued on August 19, 2020. The State appeared by and through Assistant Attorney General Julie Pittman. Defendant, who is
incarcerated, appeared by and through Danny Joseph.
Cherokee Nation, Amicus, appeared by and through Attorney General, Sara Hill. The Court makes its findings
based upon the stipulations and evidence presented by the
parties, review of the pleadings and attachments in this
Court and the Oklahoma Court of Criminal Appeals, and
the briefs and argument of counsel.

9a
Appellant in his Brief-In-Chief filed on August 2, 2018
claims that the District Court lacked jurisdiction to try
him as, while he is not Indian, his victim, A.C., is a citizen
of the Cherokee Nation and the crime occurred within the
boundaries of either the Creek Reservation or the Cherokee Reservation. In the August 19, 2020, Order Remanding for Evidentiary Hearing, the Oklahoma Court of
Criminal Appeals directed this Court to make findings of
fact and conclusions of law as to two separate questions:
(a) the Indian status of his victim, A.C., and (b) whether
the crime occurred in Indian Country. Further, the Oklahoma Court of Criminal Appeals directed this Court as
follows:
The District Court shall address only the following issues:
First, his victim, A.C.’s status as an Indian. The District Court must determine whether (1) A.C. has some
Indian blood, and (2) was recognized as an Indian by a
tribe or the federal government.1
Second, whether the crime occurred in Indian Country
within the boundaries of either the Creek Reservation
or the Cherokee Reservation. The existence and
boundaries of the Creek Reservation are not in dispute. If however, the District Court finds that the
crime did not occur within the boundaries of the Creek
Reservation the District Court is directed to follow the
analysis set out in McGirt [v. Oklahoma, 140 S. Ct.
2452 (2020)], determining (1) whether Congress established a reservation for the Cherokee Nation, and (2)

1
See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81(10th Cir. 2001). See
generally Goforth v. State, 1982 OK CR 48, ,i 6, 644 P.2d 114, 116.

10a
if so, whether Congress specifically erased those
boundaries and disestablished the reservation.2
Defendant/Appellant filed Brief of Defendant addressing the issues raised by the Oklahoma Court of
Criminal Appeals on October 6, 2020. The Cherokee Nation filed its Amicus Brief with 11 attachments on September 22, 2020.
The State filed State’s Brief on Concurrent Jurisdiction on October 1, 2020. The Appellant filed his Reply to
State’s Brief on Concurrent Jurisdiction on October 13,
2020. This Court declined to hear arguments of counsel,
issue any rulings, make findings of fact or conclusions of
law regarding this question, but allowed the parties to file
their respective pleadings with the District Court to preserve this argument for the Oklahoma Court of Criminal
Appeals.
The parties stipulated and agreed as follows:3
1. Regarding the status of the victim:
A. A.C. has a blood quantum of 61/512.
B. A.C. is a citizen of the Eastern Band of Cherokee Indians as of 9/22/2011 and was so at the
time of the crimes.
C. The Eastern Band of Cherokee Indians is an
Indian Tribal Entity recognized by the federal
government.
2. Regarding the location of the crime:
A.

The crime in this case occurred within the geographic area set out in the Treaty with the

2

Order Remanding for Evidentiary Hearing.

3

Exhibit 1, Agreed Stipulation filed October 8, 2020.

11a
Cherokee, December 29, 1835, 7 Stat. 478, as
modified under the Treaty of July 19, 1866, 14
Stat. 799, and as modified under the 1891
agreement ratified by Act of March 3, 1893,
27 Stat. 612.
Additionally, Appellant moved to admit Exhibits A
and B. The State did not object to the admission of these
exhibits and therefore, Exhibits A and B are admitted as
evidence. Appellant further requested to incorporate any
arguments made in the amicus brief filed by the Cherokee
Nation.
I. Victim’s Status as an Indian
The State of Oklahoma and Appellant have stipulated
as to the Indian status of Appellant’s victim, A.C., by virtue of the victim’s tribal membership and proof of blood
quantum. Based upon the stipulations provided, the Court
specifically finds the victim, A.C. (1) has some Indian
blood, and (2) is recognized as an Indian by a tribe or the
federal government. A.C., the victim is an Indian.
II. Whether the Crime Occurred in Indian Country
The State of Oklahoma and Appellant stipulated that
the crime occurred within the historical boundaries of the
Cherokee Nation. The State takes no position as to the
facts underlying the existence, now or historically, of the
alleged Cherokee Nation Reservation.
Whether Congress established a reservation for the
Cherokee Nation, the Court finds as follows:
1.

Cherokee Nation is a federally recognized Indian
tribe. 84 C.F.R. § 1200 (2019).

2.

The current boundaries of Cherokee Nation encompass lands in a fourteen county area within

12a
the borders of the State of Oklahoma (Oklahoma), including all of Adair, Cherokee, Craig,
Nowata, Sequoyah, and Washington Counties,
and portions of Delaware, Mayes, McIntosh,
Muskogee, Ottawa, Rogers, Tulsa, and Wagoner
Counties.
3.

The Cherokee Nation’s treaties must be considered on their own terms, in determining reservation status. McGirt, 140 S. Ct. at 2479.

4.

In McGirt, the United States Supreme Court
noted that Creek treaties promised a “permanent home” that would be “forever set apart,”
and assured a right to self-government on lands
that would lie outside both the legal jurisdiction
and geographic boundaries of any state. McGirt,
140 S.Ct. at 2461-62. As such, the Supreme Court
found that, “Under any definition, this was a
[Creek] reservation.” Id. at 2461.

5.

The Cherokee treaties were negotiated and finalized during the same period as the Creek treaties, contained similar provisions that promised a
permanent home that would be forever set apart,
and assured a right to self-government on lands
that would lie outside both the legal jurisdiction
and geographic boundaries of any state.

6.

The 1833 Cherokee treaty “solemnly pledged” a
“guarantee” of seven million acres to the Cherokees on new lands in the West “forever.” Treaty
with the Western Cherokee, Preamble, Feb. 14,
1833, 7 Stat. 414.

7.

The 1833 Cherokee treaty used precise geographic terms to describe the boundaries of the
new Cherokee lands, and provided that a patent

13a
would issue as soon as reasonably practical. Art.
1, 7 Stat. 414.
8.

The 1835 Cherokee treaty was ratified two years
later “with a view to re-unite their people in one
body and to secure to them a permanent home
for themselves and their posterity,” in what became known as Indian Territory, “without the
territorial limits of the state sovereignties,” and
“where they could establish and enjoy a government of their choice, and perpetuate such a state
of society as might be consonant with their views,
habits and condition.” Treaty with the Cherokee,
Dec. 29, 1835, 7 Stat. 478 and Holden v. Joy, 84
U.S. (17 Wall.) 211, 237-38 (1872).

9.

Like Creek treaty promises, the United States’
treaty promises to Cherokee Nation “weren’t
made gratuitously.” McGirt, 140 S. Ct. at 2460.
Under the 1835 treaty, Cherokee Nation
“cede[d], relinquish[ed], and convey[ed]” all its
aboriginal lands east of the Mississippi River to
the United States. Arts. 1, 7 Stat. 478. In return,
the United States agreed to convey to Cherokee
Nation, by fee patent, seven million acres in Indian Territory within the same boundaries as described in the 1833 treaty, plus “a perpetual outlet west.” Art. 2, 7 Stat. 478.

10.

The 1835 Cherokee treaty described the United
States’ conveyance to the Cherokee Nation of the
new lands in Indian Territory as a cession; required Cherokee removal to the new lands; covenanted that none of the new lands would be “included within the territorial limits or jurisdiction
of any State or Territory” without tribal consent;
and secured “to the Cherokee nation the right by

14a
their national councils to make and carry into effect all such laws as they may deem necessary for
the government . . . within their own country,” so
long as consistent with the Constitution and laws
enacted by Congress regulating trade with Indians. Arts. 1, 5, 8, 19, 7 Stat. 478.
11.

On December 31, 1838, President Van Buren executed a fee patent to the Cherokee Nation for
the new lands in Indian Territory. Cherokee Nation v. Hitchcock, 187 U.S. 294, 297 (1902). The
title was held by Cherokee Nation “for the common use and equal benefit of all the members.”
Cherokee Nation v. Hitchcock, 187 U.S. at 307;
See also Cherokee Nation v. Journeycake, 155
U.S. 196, 207 (1894). Fee title is not inherently
incompatible with reservation status, and establishment of a reservation does not require a “particular form of words.” McGirt, 140 S. Ct. at 2475
(citing Maxey v. Wright, 54 S.W. 807, 810 (Indian Terr. 1900) and Minnesota v. Hitchcock,
185 U.S. 373, 390 (1902)).

12.

The 1846 Cherokee treaty required federal issuance of a deed to the Nation for lands it occupied,
including the “purchased” 800,000-acre tract in
Kansas (known as the “Neutral Lands”) and the
“outlet west.” Treaty with the Cherokee, Aug. 6,
1846, art. 1, 9 Stat. 8 71.

13.

The 1866 treaty resulted in Cherokee cessions of
lands in Kansas and the Cherokee Outlet and required the United States, at its own expense, to
cause the Cherokee boundaries to be marked “by
permanent and conspicuous monuments, by two
commissioners, one of whom shall be designated

15a
by the Cherokee national council.” Treaty with
the Cherokee, July 19, 1866, art. 21, 14 Stat. 799.
14.

The 1866 Cherokee treaty “re-affirmed and declared to be in full force” all previous treaty provisions “not inconsistent with the provisions of”
the 1866 treaty, and provided that nothing in the
1866 treaty “shall be construed as an acknowledgment by the United States, or as a relinquishment by Cherokee Nation of any claims or demands under the guarantees of former treaties,”
except as expressly provided in the 1866 treaty.
Art. 31, 14 Stat. 799.

15.

Under McGirt, the “most authoritative evidence
of [ a tribe’s] relationship to the land . . . lies in
the treaties and statutes that promised the land
to the Tribe in the first place.” McGirt, 140 S. Ct.
at 2475-76.

As a result of the treaty provisions referenced above
and related federal statutes, this Court hereby finds Congress did establish a Cherokee reservation as required
under the analysis set out in McGirt.
Whether Congress specifically erased the boundaries
or disestablished the Cherokee Reservation, the Court
finds as follows:
1.

The current boundaries of Cherokee Nation are
as established in Indian Territory in the 1833 and
1835 Cherokee treaties, diminished only by two
express cessions.

2.

First, the 1866 treaty expressly ceded the Nation’s patented lands in Kansas, consisting of a
two-and-one-half mile-wide tract known as the

16a
Cherokee Strip and the 800,000-acre Neutral
Lands, to the United States. Art. 17, 14 Stat. 799.
3.

Second, the 1866 treaty authorized settlement of
other tribes in a portion of the Nation’s land west
of its current western boundary (within the area
known as the Cherokee Outlet); and required
payment for those lands, stating that the Cherokee Nation would “retain the right of possession
of and jurisdiction over all of said country . . . until thus sold and occupied, after which their jurisdiction and right of possession to terminate forever as to each of said districts thus sold and occupied.” Art. 16, 14 Stat. 799.

4.

The Cherokee Outlet cession was finalized by an
1891 agreement ratified by Congress in 1893
(1891 Agreement). Act of Mar. 3, 1893, ch. 209,
§ 10, 27 Stat. 612, 640-43.

5.

The 1891 Agreement provided that Cherokee
Nation “shall cede and relinquish all its title,
claim, and interest of every kind and character in
and to that part of the Indian Territory” encompassing a strip of land bounded by Kansas on the
North and Creek Nation on the south, and located between the ninety-sixth degree west longitude and the one hundredth degree west longitude (i.e., the Cherokee Outlet). See United
States v. Cherokee Nation, 202 U.S. 101, 10506 (1906).

6. The 1893 statute that ratified the 1891 Agreement required payment of a sum certain to the
Nation and provided that, upon payment, the
ceded lands would “become and be taken to be,

17a
and treated as, a part of the public domain,” except for such lands allotted under the Agreement
to certain described Cherokees farming the
lands. 27 Stat. 612, 640-43; United States v.
Cherokee Nation, 202 U.S. at 112.
7. Cherokee Nation did not cede or restore any
other portion of the Cherokee Reservation to the
public domain in the 1891 Agreement, and no
other cession has occurred since that time.
8. The original 1839 Cherokee Constitution established the boundaries as described in the 1833
treaty, and the Constitution as amended in 1866
recognized those same boundaries, “subject to
such modification as may be made necessary” by
the 1866 treaty. 1839 Cherokee Constitution, art.
I, § 1, and Nov. 26, 1866 amendment to art. I, § 1,
reprinted in Volume I of West’s Cherokee Nation
Code Annotated (1993 ed.).
9. Cherokee Nation’s most recent Constitution, a
1999 revision of its 1975 Constitution, was ratified
by Cherokee citizens in 2003, and provides: “The
boundaries of the Cherokee Nation territory shall
be those described by the patents of 1838 and 1846
diminished only by the Treaty of July 19, 1866,
and the Act of Mar. 3, 1893.” 1999 Cherokee Constitution, art. 2.
The State has argued the burden of proof regarding
whether Congress specifically erased the boundaries or
disestablished the reservation rests solely with Appellant.
The State also made clear that the State takes no position
as to the facts underlying the existence, now or historically, of the alleged Cherokee Nation Reservation. No ev-

18a
idence or argument was presented by the State specifically regarding disestablishment or boundary erasure of
the Cherokee Reservation. The Order Remanding for Evidentiary Hearing states, “Upon Castro-Huerta’s presentation of prima facie evidence as to the victim’s legal status as an Indian and as to the location of the crime in Indian Country, the burden shifts to the State to prove it has
subject matter jurisdiction.”4
On this point, McGirt provides that once a reservation
is established, it retains that status “until Congress explicitly indicates otherwise.” McGirt, 140 S. Ct. at 2468.
Reading the order of remand together with McGirt, regardless of where the burden of production is placed, no
evidence was presented to this Court to establish Congress explicitly erased or disestablished the boundaries of
the Cherokee Nation or that the State of Oklahoma has
jurisdiction in this matter. As a result, the Court finds the
victim, A.C., is an Indian and that the crime occurred in
Indian Country.
IT IS SO ORDERED this 8 day of December, 2020.

4

Order Remanding for Evidentiary Hearing at 4.

19a
APPENDIX C
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. F-2017-1203

VICTOR MANUEL CASTRO-HUERTA,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.

Filed: May 28, 2021

ORDER STAYING ISSUANCE OF MANDATE
On April 29, 2021, Appellee, the State of Oklahoma,
filed in this matter a Motion to Stay the Mandate For
Good Cause Pending Certiorari Review. This Court vacated Castro-Huerta’s conviction for Child Neglect on
April 29, 2021 and the State seeks to stay the mandate beyond the twenty days in the opinion and preserve CastroHuerta’s conviction to give the United States Supreme
Court the opportunity to determine whether the State
may prosecute non-Indian offenders, such as CastroHuerta, who commit crimes against Indians in Indian
Country.

20a
The State argues that good cause exists because:
(1)

this Court has stayed the mandate in Bosse v.
State, 2021 OK CR 3, 484 P.3d 286, for 45 days,
having necessarily found good cause;

(2)

the State has filed an application in the Supreme
Court to further stay the mandate in Bosse pending that Court’s review of Bosse;

(3)

the arguments the State will present in the Bosse
certiorari petition . . . [will] plainly merit the Supreme Court’s review; and

(4)

the State will also file a certiorari petition in this
case with the same meritorious question presented.

The State is presently seeking certiorari review in
Bosse of this Court’s denial of its concurrent jurisdiction
claim and we stayed issuance of the mandate in Bosse until June 1, 2021 for the State to appeal.
For good cause shown, Appellee’s request is
GRANTED. The Court hereby stays the issuance of the
mandate in this matter until June 1, 2021. Mandate will
automatically issue on June 1, 2021.
IT IS SO ORDERED.

21a
APPENDIX D
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
No. F-2017-1203
VICTOR MANUEL CASTRO-HUERTA,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
Filed: June 2, 2021

ORDER STAYING ISSUANCE OF
MANDATE INDEFINITELY
On May 27, 2021, Appellee State of Oklahoma filed in
this matter a Renewed Motion to Stay the Mandate in
Light of the United States Supreme Court’s Order Staying the Mandate in Oklahoma v. Bosse, Case No. 20A161.
As per our Order Staying the Issuance of Mandate,
handed down on May 28, 2021, the mandate in this case is
due to automatically issue on June 1, 2021.
Pursuant to the United States Supreme Court granting the stay in Oklahoma v. Bosse, the mandate in the
above styled case is hereby stayed indefinitely.
IT IS SO ORDERED.

22a
APPENDIX E
COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA

No. PCD-2019-124

SHAUN MICHAEL BOSSE,
Petitioner
v.
STATE OF OKLAHOMA,
Respondent

Filed: March 11, 2021
OPINION GRANTING
POST-CONVICTION RELIEF
KUEHN, Presiding Judge.
¶1 Shaun Michael Bosse was tried by jury and convicted of three counts of First Degree Murder and one
count of First Degree Arson in the District Court of
McClain County, Case No. CR-2010-213. He was sentenced to death on the murder counts and to thirty-five
(35) years imprisonment and a $25,000.00 fine for the arson count.

23a
¶2 On direct appeal, this Court upheld Petitioner’s
convictions and sentences.1 Petitioner’s first Application
for Post-Conviction Relief in this Court was denied.2 Petitioner filed this Successive Application for Post-Conviction Relief on February 20, 2019. The crux of Petitioner’s
Application lies in his jurisdictional challenge.
¶3 In Proposition I Petitioner claims the District
Court lacked jurisdiction to try him. Petitioner argues
that his victims were citizens of the Chickasaw Nation,
and the crime occurred within the boundaries of the
Chickasaw Nation. He relies on McGirt v. Oklahoma, 140
S. Ct. 2452 (2020) in which the United States Supreme
Court reaffirms the basic law regarding federal, state and
tribal jurisdiction over crimes, which is based on the location of the crimes themselves and the Indian status of the
parties. The Court first determined that Congress,
through treaty and statute, established a reservation for
the Muscogee Creek Nation. Id., 140 S. Ct. at 2460-62.
Having established the reservation, only Congress may
disestablish it. Id., 140 S. Ct. at 2463; Solem v. Bartlett,
465 U.S. 463, 470 (1984). Congress must clearly express
its intent to disestablish a reservation, commonly with an
“explicit reference to cession or other language evidencing the present and total surrender of all tribal interests.”
McGirt, 140 S. Ct. at 2462 (quoting Nebraska v. Parker,
136 S. Ct. 1072, 1079 (2016)). The Court concluded that
Congress had not disestablished the Muscogee Creek
Reservation. McGirt, 140 S. Ct. at 2468. Consequently,
Bosse v. State, 2017 OK CR 10, 400 P.3d 834, reh’g granted and
relief denied, 2017 OK CR 19, 406 P.3d 26, cert. denied, 138 S. Ct. 1264
(2018).
1

Bosse v. State, No. PCD-2013-360 (Okl. Cr. Dec.16, 2015) (not for
publication).
2

24a
the federal and tribal governments, not the State of Oklahoma, have jurisdiction to prosecute crimes committed by
or against Indians on the Muscogee Creek Reservation.
18 U.S.C. §§ 1152, 1153.
¶4 The question of whether Congress has disestablished a reservation is primarily established by the language of the law—statutes and treaties—concerning relations between the United States and a tribe. McGirt, 140
S. Ct. at 2468. “There is no need to consult extratextual
sources when the meaning of a statute’s terms is clear.
Nor may extratextual sources overcome those terms.”
McGirt, 140 S. Ct. at 2469. Neither historical practices,
nor demographics, nor contemporary events, are useful
measures of Congress’s intent unless there is some ambiguity in statute or treaty language. Id. at 2468-69; see also
Oneida Nation v. Village of Hobart, 968 F.3d 664, 675 n.4
(7th Cir. 2020) (McGirt “establish[ed] statutory ambiguity as a threshold for any consideration of context and
later history.”). Thus our analysis begins, and in the case
of the Chickasaw Nation, ends, with the plain language of
the treaties.
¶5 McGirt itself concerns only the prosecution of
crimes on the Muscogee Creek Reservation. However, its
reasoning applies to every claim that the State lacks jurisdiction to prosecute a defendant under 18 U.S.C.
§§ 1152, 1153. Of course, not every tribe will be found to
have a reservation; nor will every reservation continue to
the present. “Each tribe’s treaties must be considered on
their own terms. . . . ” McGirt, 140 S. Ct. at 2479. The treaties concerning the Five Tribes which were resettled in
Oklahoma in the mid-1800s (the Muscogee Creek, Cherokee, Chickasaw, Choctaw, and Seminole) have signifi-

25a
cantly similar provisions; indeed, several of the same treaties applied to more than one of those tribes. It is in that
context that we review Petitioner’s claim.
¶6 On August 12, 2020, this Court remanded this case
to the District Court of McClain County for an evidentiary
hearing. The District Court was directed to make findings
of fact and conclusions of law on two issues: (a) the victims’
status as Indians; and (b) whether the crime occurred in
Indian Country, within the boundaries of the Chickasaw
Nation Reservation. Our Order provided that the parties
could enter into written stipulations. On October 13, 2020,
the District Court filed its Findings of Fact and Conclusions of Law in the District Court.
Stipulations regarding victims’ Indian status
¶7 The parties stipulated that all three victims of the
crime, Katrina and Christian Griffin and Chasity Hammer, were members of the Chickasaw Nation. This stipulation included recognition that the Chickasaw Nation is a
federally recognized tribe. The District Court concluded
as a matter of law that all three victims had some Indian
blood and were recognized as Indian by a tribe or the federal government. We adopt these findings and conclusions, and find that the victims in this case were members
of the Chickasaw Nation.
District Court Findings of Fact
¶8 The District Court found that Congress established a reservation for the Chickasaw Nation of Oklahoma. The District Court found these facts:
(1) The Indian Removal Act of 1830 authorized the
federal government to negotiate with Native
American tribes for their removal to territory west
of the Mississippi River in exchange for the tribes’

26a
ancestral lands. Indian Removal Act of 1830, § 3, 4
Stat. 411, 412.
(2) The 1830 Treaty of Dancing Rabbit Creek (1830
Treaty) granted citizens of the Choctaw Nation
and their descendants specific land in fee simple,
“while they shall exist as a nation and live on it,” in
exchange for cession of the Choctaw Nation lands
east of the Mississippi River. Treaty of Dancing
Rabbit Creek, art. 2, Sept. 27, 1830, 7 Stat 333. The
Treaty provided that any territory or state should
have neither the right to pass laws governing the
Choctaw Nation nor embrace any part of the land
granted the Choctaw Nation by the treaty. Id. art.
4. The land boundaries were:
[B]eginning near Fort Smith where the Arkansas boundary crosses the Arkansas River,
running thence to the source of the Canadian
fork; if in the limits of the United States, or to
those limits; thence due south to Red River,
and down Red River to the west boundary of
the Territory of Arkansas; thence north along
that line to the beginning.
Id. art. 2.
(3) The 1837 Treaty of Doaksville (1837 Treaty)
granted the Chickasaw Nation a district within the
boundaries of the 1830 Treaty of Dancing Rabbit
Creek, to be held by the Chickasaw Nation on the
same terms as were granted to the Choctaw Nation. 1837 Treaty of Doaksville, art. 1, Jan. 17, 1837,
11 Stat 573.
(4) Congress modified the western boundary of the
Chickasaw Nation in the 1855 Treaty of Washington (1855 Treaty), pledging to “forever secure and

27a
guarantee” the land to those tribes, and reserving
them from sale without both tribes’ consent. 1855
Treaty of Washington with the Choctaw and the
Chickasaw, art. 1, 2, June 22, 1855, 11 Stat. 611.
This Treaty also reaffirmed the Chickasaw Nation’s right of self-government. Id. art. 7.
(5) In 1866, the United States entered into the 1866
Treaty of Washington (1866 Treaty), which reaffirmed both the boundaries of the Chickasaw Nation and its right to self-governance. 1866 Treaty
of Washington with the Chickasaw and Choctaw,
art. 10, Apr. 28, 1866, 14 Stat. 699.
(6) The parties stipulated that the location of the
crime, 15634 212th St., Purcell, OK, is within the
boundaries of the Chickasaw Nation set forth in
the 1855 and 1866 Treaties.
(7) The property at which the crime occurred was
transferred directly in 1905 from the Choctaw and
Chickasaw Nations to George Roberts, in a Homestead Patent. Title may be traced directly to the
Reservation lands granted the Choctaw and Chickasaw Nations, and subsequently allotted to individuals, and was never owned by the State of Oklahoma.
(8) The Chickasaw Nation is a federally recognized Indian tribe, exercising sovereign authority under a
constitution approved by the United States Secretary of the Interior.
(9) No evidence before the District Court showed that
the treaties were formally nullified or modified in
any way to reduce or cede Chickasaw lands to the
United States or to any other state or territory.

28a
(10) The parties stipulated that if the District Court
determined the treaties established a reservation, and if the District Court concluded that
Congress never explicitly erased the boundaries
and disestablished the reservation, then the
crime occurred within Indian Country as defined
by 18 U.S.C. § 1151(a).
District Court Conclusions of Law
¶9 The District Court first found, and this Court
agrees, that the absence of the word “reservation” in the
1855 and 1866 Treaties is not dispositive. McGirt, 140
S. Ct. at 2461. The court emphasized the language in the
1830 Treaty that granted the land “in fee simple to them
and their descendants, to inure to them while they shall
exist as a nation.” 1830 Treaty, art. 2. The 1830 Treaty secured rights of self-government and jurisdiction over all
persons and property with Treaty territory, promising
that no state should interfere with the rights granted under the Treaty. Id. art. 4. That treaty applies to the Chickasaw Nation under the 1837 Treaty of Doaksville, which
guaranteed the Chickasaw Nation the same privileges,
rights of homeland ownership and occupancy granted the
Choctaw Nation by the 1830 Treaty. 1837 Treaty, art. 1.
In the 1855 Treaty, the United States promised to “forever secure and guarantee” specific lands to the Choctaw
and Chickasaw Nations, and reaffirmed those tribes’
rights to self-government and full jurisdiction over persons and property within their limits. 1855 Treaty arts. 1,
7. This was reaffirmed in the 1866 Treaty, by which the
Chickasaw and Choctaw Nations agreed to cede defined
lands to the United States for a sum certain. 1866 Treaty,
art. 3. Thus, the District Court concluded, the treaty
promises to the Chickasaw Nation were not gratuitous.
McGirt, 140 S. Ct. at 2460.

29a
¶10 Based on this law, the District Court concluded
that Congress established a reservation for the Chickasaw Nation. We adopt this conclusion of law.
¶11 The District Court found that Congress has not
disestablished the Chickasaw Nation Reservation. After
Congress has established a reservation, only Congress
may disestablish it, by clearly expressing its intent to do
so; usually this will require “an explicit reference to cession or other language evidencing the present and total
surrender of all tribal interests.” McGirt, 140 S. Ct. at
2463 (quoting Parker, 136 S. Ct. at 1079). The District
Court found no explicit indication or expression of Congressional intent to disestablish the Chickasaw Reservation. The Court specifically stated, “No evidence was presented that the Chickasaw reservation was ‘restored to
public domain,” discontinued, abolished or vacated.’ Without, explicit evidence of a present and total surrender of
all tribal interests, the Court cannot find the Chickasaw
reservation was disestablished.” Findings of Fact and
Conclusions of Law, CF-2010-213, PCD-2019-124, Oct. 13,
2020 at 9-10 (internal citations omitted).
¶12 Based on the evidence, the District Court concluded that Congress never erased the boundaries and
disestablished the Chickasaw Nation Reservation. The
Court further concluded that the crimes at issue occurred
in Indian Country. We adopt these conclusions.
The State’s Arguments
¶13 After the evidentiary hearing, a supplemental
brief was filed on behalf of the State of Oklahoma by the
District Attorney for McClain County. The Attorney General and District Attorney ask this Court to find that the
State of Oklahoma has concurrent jurisdiction with the

30a
federal and tribal governments where, as here, a non-Indian commits a crime against Indian victims in Indian
Country. The Attorney General and the District Attorney
suggest that various procedural defenses should apply.
The District Attorney also raises a separate claim, arguing that this Court should alter its definition of Indian status, an argument not raised by the Attorney General.
Blood Quantum
¶14 The District Attorney states that the District
Judge avoided the issue of blood quantum when making
her findings and conclusions.1 He now requests that this
Court require a specific blood quantum to meet the definition of Indian status to avoid a “jurisdictional loophole”.
In the Remand Order, and in the numerous similar Orders in which we remanded other cases for consideration
of the jurisdictional question, this Court clearly set out the
definition of Indian it expected lower courts to use. We directed the District Court to “determine whether (1) the
victims had some Indian blood, and (2) were recognized as
an Indian by a tribe or by the federal government.” This
test, often referred to as the Rogers2 test, is used in a majority of jurisdictions, including in cases cited by the District Attorney.
¶15 In stating this test we cited two cases from the
Tenth Circuit, United States v. Diaz, 679 F.3d 1183, 1187
(10th Cir. 2012); United States v. Prentiss, 273 F.3d 1277,

The Judge did not avoid the issue. She refused to set a quantum
amount as requested by the District Attorney and followed this
Court’s Remand Order directing her to find “some” Indian blood under the definitions recognized by the Tenth Circuit opinions referenced.
1

2

United States v. Rogers, 45 U.S. 567, 572-73 (1846).

31a
1280-81 (10th Cir. 2001).1 The references clearly state the
test to be used in determining Indian status. Prentiss discusses the history, wide acceptance, and application of the
Rogers test. The opinion notes that the first prong of the
test may be proved by a variety of evidence, which may
include a certificate of tribal enrollment which sets forth
the person’s degree of Indian blood, or a listing on a tribal
roll which requires a certain degree of Indian blood.
Prentiss, 273 F.3d at 1282-83. Diaz states that the Tenth
Circuit uses a “totality-of-the-evidence approach,” which
may include proof of blood quantum, but only if a particular tribe requires it. Diaz, 679 F.3d at 1187.
¶16 The District Attorney correctly observes that a
minority of courts have chosen to impose a particular
blood quantum, or to state in individual cases whether a
specific blood quantum meets the threshold of “some
blood.” The State of Oklahoma is within the jurisdictional
boundaries of the Tenth Circuit. If the jurisdictional test
is met and it is determined that a particular case must be
prosecuted in a federal district court, the Tenth Circuit
definition will govern in that court. There is simply no
rhyme nor reason to require a test for Indian status in our
Oklahoma state courts that is significantly different from

1
In support of his claim that more than “some” Indian blood is required, Respondent cites dicta in Goforth v. State, 1982 OK CR 48,
¶ 6, 644 P.2d 114, 116. With almost a quarter blood quantum, the defendant easily met the requirement of the first prong, and this Court
did not further analyze that issue. However, in referring to the twopart test, this Court in a 1982 decision, used the word “significant”
rather than “some.” Id. This single word, describing an issue not the
focus of the appeal, does not substitute for the entire body of state
and federal jurisprudence correctly stating the test.

32a
that used in the comparable federal courts.1 Consistency
and economy of judicial resources compel us to adopt the
same definition as that used by the Tenth Circuit.2
¶17 Without any foundation in law, the District Attorney speculates that, without a precise blood quantum
requirement, a defendant might claim he is Indian in a
state court—thus defeating state court jurisdiction—and
yet be found not Indian in federal court, escaping criminal
prosecution altogether. He cites no relevant or persuasive
law to support this speculation. The District Attorney relies on a single case from the State of Washington, State
v. Dennis, 840 P.2d 909 (Wash. App. 1992). Blood quantum was not an issue in that case and is not mentioned in
the opinion. The defendant, a member of a Canadian tribe,
was charged in state court with murdering his wife. In
state court, defendant successfully argued that he was an
Indian under the Major Crimes Act, Section 1153, and
thus not subject to State jurisdiction. Of course, the federal district court found otherwise, since defendant was
Interestingly, the District Attorney argues instead that a “loophole” will exist if we do not have the same standard as the Tenth Circuit.
1

2
In addition, to require a specific blood quantum would be out of
step with other recent developments. In 2018, Congress amended the
Stigler Act. Enacted in 1947, that Act was one of several Acts restricting the conveyance of lands that were allotted to citizens of the Five
Tribes, if the owner had one-half or more of Indian blood. The restrictions on conveyance were designed to protect tribal citizens. As
time passed, requiring such a high blood quantum stripped those protections from many owners and reduced the amount of restricted
land. The recent amendment struck this provision, replacing it with
the phrase “of whatever degree of Indian blood.” Stigler Act Amendments of 2018, P.L. 115-399, Sec. 1(a). We will not disregard this clear
statement of Congressional intent regarding a blood quantum requirement for the Five Tribes.

33a
not a member of a federally recognized tribe. Id., 840 P.2d
at 910. The State never appealed the initial dismissal in
state district court. After federal charges were dismissed,
the State of Washington attempted to reinstate the
charges. The Washington Court of Appeals found that,
given the State’s failure to appeal the initial state court
ruling, the State was precluded by statute from reinstating the case. Id. at 910-11. The appellate court specifically
noted that the problem in this case was not the defendant’s claim, but that the trial court made a mistake of law
in concluding defendant was Indian under the Major
Crimes Act. Id. If anything, this case underscores the utility and flexibility of the Rogers test, when correctly applied. It is clear that, using that test, jurisdiction always
lay with the State of Washington.
¶18 There simply is no jurisdictional loophole as described by the District Attorney. To cure this non-existent
problem, the State would have this Court adopt a test
which is different from, and potentially more restrictive
than, the test used in our corresponding federal system.
This would be far more likely to result in the kind of confusion the District Attorney warns against. Say this Court
were to adopt a particular blood quantum number. A defendant could be a member of a federally recognized tribe,
with Indian blood less than that quantum. He would not
be Indian in state court, and the State would retain jurisdiction. However, when the convicted defendant filed a
writ of habeas corpus in federal court, because he had
some Indian blood, he would meet the Rogers test. The
federal court would find that the State had no jurisdiction,
and the defendant should have been tried in federal court
to begin with—just like McGirt. Consistency and economy of judicial resources compel us to adopt the same definition as that used by the Tenth Circuit.

34a
¶19 Furthermore, we find it inappropriate for this
Court to be in the business of deciding who is Indian. As
sovereigns, tribes have the authority to determine tribal
citizenship. Plains Commerce Bank v. Long Family
Land & Cattle Co., 554 U.S. 316, 327 (2008); see also
United States v. Antelope, 430 U.S. 641, 646 (1977) (Indian
status determined by recognition by tribe acting as separate sovereign, not by racial classification). Some tribes
have a blood quantum requirement, and some do not. Of
those that do, the percentage differs among individual
tribes. If a person charged with a crime has some Indian
blood, and they are recognized as being an Indian by a
tribe or the federal government, this Court need not second-guess that recognition based on an arbitrary mathematical formula. The District Court correctly followed
this Court’s instructions in the Order remanding this case,
determining that the victims had some Indian blood.
Procedural Defenses
¶20 Both the Attorney General and the District
Court ask this Court to consider this case barred for a variety of procedural reasons: waiver under the successive
capital post-conviction statute, 22 O.S. 2011, § 1089(D),
and waiver of the jurisdictional challenge; failure to meet
the sixty-day filing deadline to raise a previously unavailable legal or factual basis in subsequent post-conviction
applications under Rule 9.7(G)(3), Rules of the Oklahoma
Court of Criminal Appeals, Title 22, Ch. 18, App. (2021);
and the doctrine of laches. Through the District Attorney,
the State admits that this Court has resolved these issues
in this case in our Order remanding for an evidentiary
hearing:
Under the particular facts and circumstances of this
case, and based on the pleadings in this case before the

35a
Court, we find that Petitioner’s claim is properly before this court. The issue could not have been previously presented because the legal basis for the claim
was unavailable. 22 O.S. §§ 1089(D)(8)(a), 1089(D)(9)
(a); McGirt v. Oklahoma, 140 S. Ct. 2452 (2020).
Bosse v. State, PCD-2019-124, Order Remanding for Evidentiary Hearing at 2 (Okl. Cr. Aug. 12, 2020). The State
asks us to reconsider this determination, but offers no
compelling arguments in support.1
¶21 It is settled law that [s]ubject-matter jurisdiction
can never be waived or forfeited.” Gonzalez v. Thaler, 565
U.S. 134, 141 (2012). The District Attorney admits that
generally litigants “cannot waive the argument that the
district court lacks subject-matter jurisdiction,” citing
United States v. Green, 886 F.3d 1300, 1304 (10th Cir.
2018); see also United States v. Garcia, 936 F.3d 1128,
1140-41 (10th Cir. 2019) (parties can neither waive subject-matter jurisdiction nor consent to trial in a court
without jurisdiction). This Court has repeatedly held that
the limitations of post-conviction or subsequent post-conviction statutes do not apply to claims of lack of jurisdiction. Wackerly v. State, 2010 OK CR 16, ¶ 4, 237 P.3d 795,
797; Wallace v. State, 1997 OK CR 18, ¶ 15, 935 P.2d 366,
372; see also Murphy v. State, 2005 OK CR 25, 5-7, 124

1
The State argues both that application of McGirt will have significant consequences for criminal prosecutions, and that waiver should
apply because there is really nothing new about the claim. Taken as a
whole, the arguments advanced by the State in both its Response and
Supplemental Brief support a conclusion that, although similar claims
may have been raised in the past in other cases, the primacy of State
jurisdiction was considered settled and those claims had not been expected to prevail. The legal basis for this claim was unavailable under
Section 1089(D).

36a
P.3d 1198, 1200 (recognizing limited scope of post-conviction review, then addressing newly raised jurisdictional
claim on the merits). In Wackerly, we also held the time
limit on newly raised issues in Rule 9.7 did not apply to
jurisdictional questions. Wackerly, 2010 OK CR 16, ¶ 4,
237 P.3d at 797.1
¶22 McGirt provides a previously unavailable legal
basis for this claim. Subject-matter jurisdiction may—indeed, must—be raised at any time. No procedural bar applies, and this issue is properly before us. 22 O.S.
§§ 1089(D)(8)(a), 1089(D)(9)(a).
There is no concurrent jurisdiction.
¶23 The General Crimes Act and the Major Crimes
Act give federal courts jurisdiction over crimes committed
by or against Indians in Indian Country. 18 U.S.C.
§§ 1152, 1153. Congress provides that crimes committed
in certain locations or under some specific circumstances
are within the sole and exclusive jurisdiction of the United
States. Section 1152, the General Crimes Act, brings
crimes committed in Indian Country within that jurisdiction, unless they lie within the jurisdiction of tribal courts
or jurisdiction is otherwise expressly provided by federal
law. 18 U.S.C. § 1152; see also 18 U.S.C. § 1153 (Major
Crimes Act). This gives federal courts jurisdiction over
Indians and non-Indians who commit crimes against Indians in Indian Country. By explicitly noting that it may ex-

1
The principle that subject-matter jurisdiction may not be waived
also settles the State’s argument based on laches—that Petitioner
waited too long to raise his claim, and the passage of time makes resolution of the issue, or a grant of relief, difficult to determine or implement. None of the cases on which the State relies concern a claim
of lack of jurisdiction.

37a
pressly provide otherwise, Congress has preempted jurisdiction over these crimes in state courts. Indeed, this
Court has held that federal law preempts state jurisdiction over crimes committed by or against an Indian in Indian Country. Cravatt v. State, 1992 OK CR 6, ¶ 20, 825
P.2d 277, 280. State courts retain jurisdiction over nonIndians who commit crimes against non-Indians in Indian
Country. Id.; Salem, 463 U.S. at 465 n.2; Williams v.
United States, 327 U.S. 711, 714 & n.10 (1946).
¶24 The State argues that, despite the clear language
of both statute and case law, federal and state courts have
concurrent jurisdiction over non-Indians under the General Crimes Act. The law does not support this argument.
The Attorney General relies in part on United States v.
McBratney, 104 U.S. 621 (1881) to support his argument.
However, in McBratney, a non-Indian murdered another
non-Indian within the boundaries of the Ute Reservation.
The Supreme Court held that the federal government had
no jurisdiction to prosecute a crime committed in Indian
Country where neither the perpetrator nor the victim
were Indian. Id., 104 U.S. at 624. Nothing in that opinion
supports a conclusion that, where federal jurisdiction exists by statute, states have concurrent jurisdiction as well.
And the Supreme Court itself later refuted any such interpretation. In Donnelly v. United States, the Court held
that McBratney did not apply to “offenses committed by
or against Indians,” which were subject to federal jurisdiction. Donnelly, 228 U.S. 243, 271-72 (1913). In the context of federal criminal jurisprudence and Indian Country, Donnelly reaffirmed Congress’s preemption of state
jurisdiction over crimes by or against Indians.1 More recently, the Court has noted that where federal jurisdiction
Respondent also misunderstands the discussion in Ex parte Wilson, 140 U.S. 575 (1891). There, the defendant and victim were non1

38a
lies under Section 1153, it preempts state jurisdiction.
United States v. John, 437 U.S. 634, 651 (1978); see also
Goforth v. State, 1982 OK CR 48, ¶ 5, 644 P.2d 114, 115-16
(federal jurisdiction under §§ 1152, 1153 preempts state
jurisdiction except as to crimes among non-Indians).
¶25 The General Crimes Act provides that federal
jurisdiction may be changed by law. 18 U.S.C. § 1152. And
Congress has done so, giving the State of Kansas criminal
jurisdiction on Indian reservations in that state. The Kansas Act conferred jurisdiction on Kansas courts for offenses of state law committed by or against Indians on
reservations in Kansas. 18 U.S.C. § 3243. The Supreme
Court determined that this Act confers concurrent jurisdiction on State courts only to the extent that the State of
Kansas may prosecute people for state law offenses that
are also punishable as offenses under federal law; otherwise, the jurisdiction to prosecute federal crimes committed on Kansas reservations lies with the federal government. Negonsott v. Samuels, 507 U.S. 99, 105-106 (1993).
¶26 Congress also created the opportunity for six
specific states to exercise jurisdiction over crimes committed in Indian Country by enacting Public Law 280. Act
of Aug. 15, 1953, Pub. L. No. 67, Stat. 588, codified at 18
U.S.C. § 1162, 25 U.S.C. § 1321-26; 18 U.S.C. § 1162(a). In
a separate provision, P.L. 280 created a framework for
other states to assume jurisdiction over crimes committed
Indian. The defendant argued that the federal government could not
retain jurisdiction over crimes committed by and against Indians
while allowing state jurisdiction over crimes involving non-Indians
committed on a reservation; he claimed that either the federal government had sole and exclusive jurisdiction over every crime, or it
had none at all. Id. at 577. The Court rejected this argument, noting
that Congress had the power to grant and limit jurisdiction in federal
courts. Id. at 578.

39a
in Indian Country, with the consent of the affected tribe;
the state and the federal government may have concurrent jurisdiction if the affected tribe requests it and with
the consent of the Attorney General. 25 U.S.C. § 1321(a).
Oklahoma has not exercised the options for criminal jurisdiction afforded by P.L. 280. Cravatt, ¶ 15, 825 P.2d at 279.
¶27 The Kansas Act and P.L. 280 would have been
unnecessary if, as the State argues, state and federal governments already have concurrent jurisdiction over nonIndians who commit crimes in Indian Country. Rather,
these Acts are examples of how Congress may implement
the provision in Section 1152, allowing for an exception to
federal jurisdiction. Congress has written no law similarly
conferring jurisdiction on Oklahoma courts, or otherwise
modifying the statutory provisions granting jurisdiction
for prosecution of crimes in Indian Country to federal
courts in Oklahoma. Respondent does not suggest it has.
¶28 Absent any law, compact, or treaty allowing for
jurisdiction in state, federal or tribal courts, federal and
tribal governments have jurisdiction over crimes committed by or against Indians in Indian Country, and state jurisdiction over those crimes is preempted by federal law.
The State of Oklahoma does not have concurrent jurisdiction to prosecute Petitioner.
Conclusion
¶29 Petitioner’s victims were Indian, and this crime
was committed in Indian Country. The federal government, not the State of Oklahoma, has jurisdiction to prosecute Petitioner. Proposition I is granted. Propositions II
and III are moot.

40a
DECISION
¶30 The Judgment and Sentence of the District
Court of McClain County is REVERSED and the case is
REMANDED with instructions to DISMISS. Pursuant
to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE is
STAYED for twenty (20) days from the delivery and filing
of this decision.
ROWLAND, Vice Presiding Judge, concurring in results:
¶1 I concur in the result of the majority opinion, but
write separately to relate my views on two of the issues
discussed therein, namely the test for Indian status and
the use of the term subject matter jurisdiction.
A. The Test for Indian Status
¶2 My first objection with the majority opinion is its
dismissal of the thought that this Court should decide who
is Indian. Making a finding on the defendant’s Indian status is precisely what we must do in order to determine
whether the State of Oklahoma has jurisdiction since federal jurisdiction applies only to Indians. One question before us is what test we should employ to decide this particular component of Bosse’s claim. In that regard, I agree
fully with the majority that our test for Indian status must
be identical to that used by the United States Court of Appeals for the Tenth Circuit.
¶3 The Major Crimes Act is pre-emptive of state
criminal jurisdiction “when it applies. . . . ” United States
v. John, 437 U.S. 634, 651 (1978) (emphasis added). If the
Indian Country Crimes Act or Major Crimes Act do not
apply, then the State of Oklahoma, as a sovereign with
general police powers, has obvious authority to prosecute

41a
and punish crimes within its borders. Adopting a test different from that used by federal courts risks this Court
dismissing a case where the crime was committed in Indian country on the basis that a defendant is Indian and
the federal court, under a different test, determining the
defendant is not Indian and thus there is no federal jurisdiction.1 That is the type of jurisdictional void this Court
warned of in Goforth v. State, 1982 OK CR 48, 644 P.2d
114, where we interpreted Article 1, Section 3 of the Oklahoma Constitution to disclaim jurisdiction over Indian
lands only when federal jurisdiction is apparent. “[W]here
federal law does not purport to confer jurisdiction on the
United States courts, the Oklahoma Constitution does not
deprive Oklahoma courts from obtaining jurisdiction over
the matter.” Id. 1982 OK CR 48, 118, 644 P.2d at 116.
B. Subject Matter Jurisdiction
¶4 The other portion of today’s majority opinion with
which I do not agree is that the federal criminal statutes
involved here deprive Oklahoma courts of subject matter
jurisdiction. “Subject matter jurisdiction defines the
court’s authority to hear a given type of case.” Carlsbad
Tech., Inc. v. HIF Bio, Inc., 556 U.S. 635, 639 (2009). Our
cases recognize three components to jurisdiction: “(1) jurisdiction over the subject matter—the subject matter in
this connection was the criminal offense of murder, (2) jurisdiction over the person, and (3) the authority under law
to pronounce the particular judgment and sentence herein
rendered.” Petition of Dare, 1962 OK CR 35, ¶5, 370 P.2d
846, 850-51. Like Dare, the subject matter in this case is a
1
Because, as explained later in this writing, I do not think subject
matter jurisdiction is implicated, I see no reason the State could not
refile its charges in such an instance, but that is, of course, not before
the Court at this time.

42a
murder prosecution. The subject matter jurisdiction of
Oklahoma courts is established by Article 7 of our State
Constitution and Title 20 of our statutes which grant general jurisdiction, including over murder cases, to our district trial courts. Basic rules of federalism dictate that
Congress has no power to expand or diminish that jurisdiction except where Congress has created a federal cause
of action and allowed state courts to assume jurisdiction.
See Simard v. Resolution Tr. Corp., 639 A.2d 540, 545
(D.C. 1994) (noting presumption of concurrent jurisdiction among federal and state courts is rebutted only by a
clear expression by Congress vesting federal courts with
exclusive jurisdiction). Were it otherwise, Congress could
legislatively tinker with the authority of state courts to
hear all type of state crimes or civil causes of action.
¶5 What Congress can do and has done is exercise its
own territorial jurisdiction over Indians in Indian Country by virtue of its plenary power to regulate affairs with
Indian tribes. “Congress possesses plenary power over
Indian affairs, including the power to modify or eliminate
tribal rights.” South Dakota v. Yankton Sioux Tribe, 522
U.S. 329, 343 (1998). Federal criminal authority over socalled “federal enclaves” is found at 18 U.S.C. § 7, which
begins with the words, “The term especial maritime and
territorial jurisdiction of the United States’, as used in
this title, includes. . . . ” (emphasis added). The Indian
Country Crimes Act, 18 U.S.C. § 1152, with exceptions,
“extends the general criminal laws of federal maritime
and enclave jurisdiction to Indian country. . . . ” Negonsott
v. Samuels, 507 U.S. 99, 102 (1993). Thus a plain reading
of Negonsott in tandem with Section 7 makes clear that it
is territorial jurisdiction, not subject matter jurisdiction,
which is at issue. See also United States v. Smith, 925 F.3d
410, 415 (9th Cir.), cert. denied, 140 S. Ct. 407 (2019) (finding Indian Country is a federal enclave for purposes of 18

43a
U.S.C. § 7). This is likely why none of the cases cited in
the majority opinion hold that the state lacks subject matter jurisdiction over crimes by or against Indians in Indian Country. In United States v. Langford, 641 F.3d
1195, 1197 n.1 (10th Cir. 2011), the Tenth Circuit stated
explicitly that the federal jurisdiction under these statutes is not subject matter jurisdiction:
When we speak of jurisdiction, we mean sovereign
authority, not subject matter jurisdiction. Cf.
Prentiss, 256 F.3d at 982 (disclaiming the application
of subject matter jurisdiction analysis to cases involving an inquiry under the ICCA). This is consistent with
use of the term in United States v. McBratney, 104
U.S. 621, 623-4, 26 L.Ed. 869 (1881).
(Emphasis added).
¶6 This is an important distinction, because as the majority makes clear, the lack of subject matter jurisdiction
cannot be waived or forfeited and may be raised at any
point in the litigation. Conversely, territorial jurisdiction
may be subject to waiver. See Application of Poston, 1955
OK CR 39, ¶ 35, 281 P.2d 776, 785 (request for relief on
ground that district court did not have territorial jurisdiction was denied; claim was deemed waived because it was
not raised below). See also State v. Randle, 2002 WI App
116, ¶ 14, 252 Wis. 2d 743, 751, 647 N.W.2d 324, 329 (concluding territorial jurisdiction subject to waiver in some
instances); Porter v. Commonwealth, 276 Va. 203, 229, 661
S.E.2d 415, 427 (Va. 2008) (territorial jurisdiction is
waived if not properly and timely raised); In re Teagan
K.-O., 335 Conn. 745, 765 n. 22, 242 A.3d 59, 73 n. 22 (Conn.
2020) (territorial jurisdiction may be subject to waiver).
But see State v. Dudley, 364 S.C. 578, 582, 614 S.E.2d 623,
625-26 (2005) (“Although territorial jurisdiction is not a
component of subject matter jurisdiction, we hold that it

44a
is a fundamental issue that may be raised by a party or by
a court at any point in the proceeding. . . . The exercise of
extraterritorial jurisdiction implicates the state’s sovereignty, a question so elemental that we hold it cannot be
waived by conduct or by consent.” (Citation and footnote
omitted.)).
¶7 Characterizing Sections 1152 and 1153 as implicating subject matter jurisdiction would allow a defendant,
knowing he is Indian and that his crimes fall within the
Major Crimes Act, to forum shop, by rolling the dice at a
state trial and then wiping that slate clean if he receives
an unsatisfactory verdict by asserting his Indian status.
Viewing it as territorial jurisdiction avoids this absurdity,
and would allow the possibility that procedural bars,
laches, etc. might preclude some McGirt claims.2
¶8 In this case, however, I agree with the majority that
our earlier ruling in our Remand Order—that Bosse timely
met the requirements for raising a claim based on new law
under the Capital Post-Conviction Act—resolved any claim
that Bosse is procedurally barred from asserting this claim
on post-conviction. Accordingly, I concur in the result.
LUMPKIN, Judge, concurring in results:
¶1 Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a minimum concur in the results of this opinion. While our nation’s judicial structure requires me to apply the majority
opinion in the 5-4 decision of the U.S. Supreme Court in
2
The McGirt opinion tacitly acknowledges potential procedural
bars, noting the State of Oklahoma had “put aside whatever procedural defenses it might have.” McGirt, 140 S. Ct. at 2460. Those defenses would not be relevant if subject matter jurisdiction, which is
non-waivable, were concerned.

45a
McGirt v. Oklahoma, U.S. ___, 140 S. Ct. 2452 (2020), I do
so reluctantly. Upon the first reading of the majority opinion in McGirt I initially formed the belief that it was a result in search of an opinion to support it. Then upon reading the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had totally
failed to follow the Court’s own precedents, but had
cherry picked statutes and treaties, without giving historical context to them. The Majority then proceeded to do
what an average citizen who had been fully informed of
the law and facts as set out in the dissents would view as
an exercise of raw judicial power to reach a decision which
contravened not only the history leading to the disestablishment of the Indian reservations in Oklahoma, but also
willfully disregarded and failed to apply the Court’s own
precedents to the issue at hand.
¶2 My quandary is one of ethics and morality. One of
the first things I was taught when I began my service in
the Marine Corps was that I had a duty to follow lawful
orders, and that same duty required me to resist unlawful
orders. Chief Justice Roberts’ scholarly and judicially
penned dissent, actually following the Court’s precedents
and required analysis, vividly reveals the failure of the
majority opinion to follow the rule of law and apply over a
century of precedent and history, and to accept the fact
that no Indian reservations remain in the State of Oklahoma.1 The result seems to be some form of “social justice” created out of whole cloth rather than a continuation
1
Senator Elmer Thomas, D-Oklahoma, was a member of the Senate Committee on Indian Affairs. After hearing the Commissioner’s
speech regarding the Indian Reorganization Act (IRA) in 1934, Senator Thomas opined as follows:

I can hardly see where it (the IRA) could operate in a State like
mine where the Indians are all scattered out among the whites

46a
of the solid precedents the Court has established over the
last 100 years or more.
¶3 The question I see presented is should I blindly follow and apply the majority opinion or do I join with Chief
Justice Roberts and the dissenters in McGirt and recognize “the emperor has no clothes” as to the adherence to
following the rule of law in the application of the McGirt
decision?
¶4 My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I fulfill
my duties and apply the edict of the majority opinion in
McGirt. However, I am not required to do so blindly and
without noting the flaws of the opinion as set out in the
and they have no reservation, and they could not get them into
a community without you would go and buy land and put them on
it. Then they would be surrounded very likely with thickly populated white section with whom they would trade and associate. I
just cannot get through my mind how this bill can possibly be
made to operate in a State of thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate Committee on Indian Affairs, stated in response to the Commissioner’s speech that in
Oklahoma, he did not think “we could look forward to building up
huge reservations such as we have granted to the Indians in the past.”
Id. at 157. In 1940, in the Foreword to Felix S. Cohen, Handbook of
Federal Indian Law (1942), Secretary of the Interior Harold Ickes
wrote in support of the IRA, “[t]he continued application of the allotment laws, under which Indian wards have lost more than two-thirds
of their reservation lands, while the costs of Federal administration
of these lands have steadily mounted, must be terminated.” (emphasis
added).

47a
dissents. Chief Justice Roberts and Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with the Indian reservations.
Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907, all parties accepted the fact
that Indian reservations in the state had been disestablished and no longer existed. I take this position to adhere
to my oath as a judge and lawyer without any disrespect
to our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing the
totality of the law and facts.
LEWIS, Judge, specially concurring:
¶1 I write separately to address the notion that
McGirt v. Oklahoma, 140 S. Ct. 2452 (2020) addresses
something less than subject matter jurisdiction over an
Indian who commits a crime in Indian Country or over
any person who commits a crime against an Indian in Indian Country. McGirt, of course, serves as the latest waypoint for our discussion on the treatment of criminal cases
arising within the historic boundaries of Indian reservations which were granted by the United States Government many years ago. McGirt, 140 S. Ct. at 2460, 2480.
The main issue in McGirt was whether those reservations
were disestablished by legislative action at any point after
being granted.
¶2 McGirt deals specifically, and exclusively, with the
boundaries of the reservation granted to the Muscogee
(Creek) Nation. McGirt, 140 S. Ct. at 2459, 2479. However, the other Indian Nations comprising the Five Civilized Tribes have historical treaties with language indistinct from the treaty between the Muscogee (Creek) Nation and the federal government. Therefore, this case involving a crime occurring within the historical boundaries

48a
of the Chickasaw Nation Reservation must be analyzed in
the same manner as the boundaries of the Muscogee
(Creek) Nation Reservation. The District Court below
conducted a thorough analysis and concluded that the reservation was not disestablished. I agree with this conclusion.
¶3 McGirt was also clear that if the reservation was
not disestablished by the U.S. Congress, Oklahoma has no
right to prosecute Indians for crimes committed within
the historical boundaries of the Indian reservations.
McGirt, 140 S. Ct. at 2460. Therefore, because the Chickasaw Nation Reservation was not disestablished, the
State of Oklahoma has no authority to prosecute Indians
for crimes committed within the boundaries of the Chickasaw Nation Reservation, nor does Oklahoma have jurisdiction over any person who commits a crime against an
Indian within the boundaries of the Chickasaw Nation
Reservation as was the case here. The federal government has exclusive jurisdiction over those cases. 18 U.S.C.
§ 1153(a).
¶4 A lack of subject matter jurisdiction leaves a court
without authority to adjudicate a matter. This Court has
held that subject matter jurisdiction cannot be conferred
by consent, nor can it be waived, and it may be raised at
any time. Armstrong v. State, 1926 OK CR 259, 248 P. 877,
878; Cravatt v. State, 1992 OK CR 6, ¶ 7, 825 P.2d 277, 280;
Magnan v. State, 2009 OK CR 16, ¶¶ 9 8612, 207 P.3d 397,
402 (holding that jurisdiction over major crimes in Indian
Country is exclusively federal).
¶5 Because the issue in this case is one of subject matter jurisdiction, I concur that this case must be reversed
and remanded with instructions to dismiss.

49a
HUDSON, Judge, concurring in results:
¶1 Today’s decision applies McGirt v. Oklahoma, 140
S. Ct. 2452 (2020) to the facts of this case. I concur in the
result of the majority’s opinion based on the stipulations
below concerning the victims’ Indian status and the location of these crimes within the historic boundaries of the
Chickasaw Reservation. Under McGirt, the State cannot
prosecute Petitioner because of the Indian status of the
victims and the location of this crime within Indian Country as defined by federal law. I therefore as a matter of
stare decisis fully concur in today’s decision.
¶2 I disagree, however, with the majority’s adoption
as binding precedent of the District Court’s finding that
Congress never disestablished the Chickasaw Reservation. Here, the State took no position below on whether
the Chickasaw Nation has, or had, a reservation. The
State’s tactic of passivity has created a legal void in this
Court’s ability to adjudicate properly the facts underlying
Petitioner’s argument. This Court is left with only the
trial court’s conclusions of law to review for an abuse of
discretion. We should find no abuse of discretion based on
the record evidence presented. But we should not establish as binding precedent that the Chickasaw Nation was
never disestablished based on this record.
¶3 I also fully join Judge Rowland’s special writing
concerning the test for Indian status and the use of the
term subject matter jurisdiction.
¶4 Finally, I write separately to note that McGirt resurrects an odd sort of Indian reservation. One where a
vast network of cities and towns dominate the regional
economy and provide modern cultural, social, educational
and employment opportunities for all people on the reservation. Where the landscape is blanketed by modern

50a
roads and highways. Where non-Indians own property
(lots of it), run businesses and make up the vast majority
of inhabitants. On its face, this reservation looks like any
other slice of the American heartland—one dotted with
large urban centers, small rural towns and suburbs all
linked by a modern infrastructure that connects its inhabitants, regardless of race (or creed), and drives a surprisingly diverse economy. This is an impressive place—a
modern marvel in some ways—where Indians and non-Indians have lived and worked together since at least statehood, over a century.
¶5 McGirt orders us to forget all of that and instead
focus on whether Congress expressly disestablished the
reservation. We are told this is a cut-and-dried legal matter. One resolved by reference to treaties made with the
Five Civilized Tribes dating back to the nineteenth century. Ignore that Oklahoma has continuously asserted jurisdiction over this land since statehood, let alone the
modern demographics of the area.
¶6 The immediate effect under federal law is to prevent state courts from exercising criminal jurisdiction
over a large swath of Greater Tulsa and much of eastern
Oklahoma. Yet the effects of McGirt range much further.
The present case illuminates some of that decision’s consequences. Crime victims and their family members in
this and a myriad of other cases previously prosecuted by
the State can look forward to a do-over in federal court of
the criminal proceedings where McGirt applies. And they
are the lucky ones. Some cases may not be prosecuted at
all by federal authorities because of issues with the statute of limitations, the loss of evidence, missing witnesses
or simply the passage of time. All of this foreshadows a
hugely destabilizing force to public safety in eastern Oklahoma.

51a
¶7 McGirt must seem like a cruel joke for those victims and their family members who are forced to endure
such extreme consequences in their case. One can certainly be forgiven for having difficulty seeing where—or
even when—the reservation begins and ends in this new
legal landscape. Today’s decision on its face does little to
vindicate tribal sovereignty and even less to persuade that
a reservation in name only is necessary for anybody’s
well-being. The latter point has become painfully obvious
from the growing number of cases like this one that come
before this Court where non-Indian defendants are challenging their state convictions using McGirt because their
victims were Indian.
¶8 Congress may have the final say on McGirt. In
McGirt, the court recognized that Congress has the authority to take corrective action, up to and including disestablishment of the reservation. We shall see if any practical solution is reached as one is surely needed. In the
meantime, cases like Petitioner’s remain in limbo until
federal authorities can work them out. Crime victims and
their families are left to run the gauntlet of the criminal
justice system once again, this time in federal court. And
the clock is running on whether the federal system can
keep up with the large volume of new cases undoubtedly
heading their way from state court.

